          Pension Benefit Guaranty Corporation
                 Office of Inspector General
                               Evaluation




 Fiscal Year 2011 Vulnerability Assessment and Penetration
                       Testing Report



              RESTRICTED DISCLOSURE
This document contains privileged and confidential information, and was
produced at the direction of the Pension Benefit Guaranty Corporation, Office of
Inspector General. It may not be disclosed, reproduced, or disseminated without
the express permission of the Inspector General.




                             March 19, 2012
                                                         EVAL-2012-7/FA-11-82-5
                               Pension Benefit Guaranty Corporation
                                Office of Inspector General
                                1200 K street, N.W., Washington, D.C. 20005-4026


                                                                                         March 19,2012



To:             Joshua Gotbaum
                Director
                Pension Benefit Guaranty Corporation

From:           Joseph A. Marchowsky      ~      Cl    ~
                Assistant Inspector General for Audit

Subject:        Fiscal Year 2011 Vulnerability Assessment and Penetration Testing
                (EVAL-2012-7/FA-11-82-5)

I am pleased to transmit the attached Restricted Disclosure repori detailing results of the
vulnerability assessment and penetration testing evaluation performed in conjunction with the audit
of the Pension Benefit Guaranty Corporation (PBGC) fiscal year 2011 financial statements (AUD-
2012-lIFA-11-82-1).

During the financial statement audit, our independent public accountant, CliftonLarsonAllen LLP
(formerly Clifton Gunderson, LLP), assessed the PBGC information security infrastructure to test for
technical weaknesses in PBGC's computer systems that may allow employees or outsiders to cause
harm to, and/or impact PBGC's business processes and information. In its assessment,
CliftonLarsonAllen found major issues of concern in patch management, access controls, and
configuration management; many of the vulnerabilities identified were repeated from prior years.
FUliher, CliftonLarsonAllen also reported that PBGC's inefficient network design exposed the
Corporation to slow network performance and limited or no connection to the Internet.

Critical vulnerabilities are defined as flaws that could be easily exploited by a remote attacker with
no password (i.e. unauthenticated) and lead to system compromise without requiring user interaction.
High severity vulnerabilities are flaws that can easily compromise the confidentiality, integrity or
availability of resources. CliftonLarsonAllen's testing disclosed many more technical weaknesses
(vulnerabilities) than in prior years. Urgent attention is required to mitigate or eliminate all critical
and high severity technical weaknesses.

PBGC's efforts to address vulnerabilities identified should include an effective continuous
monitoring program to scan for vulnerabilities, the timely application of patches and updates,
stronger passwords, and network design changes to mitigate the risk of interruptions.

PBGC has acknowledged that attention is needed to mitigate the vulnerabilities identified by
OIG. In response to our evaluation the ChiefInformation Officer has created a team to address
reported weaknesses and has committed to the mitigation of critical and high vulnerabilities
Joshua Gotbaum                                                                                            2


within 90 days. Additionally, PBGC has obtained contract support to perform monthly scans.
OIG will follow-up on the proactive steps taken PBGC; we are encouraged by the immediate
action to improve the Corporation's IT security.

Due to the sensitive nature of this report, its disclosure has been restricted. This transmittal
memorandum will be posted to the OIG external website, but the attachment summarizing our
evaluation will be redacted in its entirety because it contains privileged and confidential information
that, if disclosed, would cause fUlther vulnerability.

We appreciate the cooperation that CliftonLarsonAllen and the OIG received while performing the
testing.


Attachment
                                                    Attachment




The presentation summarizing PBGC’s vulnerability
 assessment contains confidential and proprietary
       information and has been redacted.

                        .
If you want to report or discuss confidentially any instance of misconduct,
   fraud, waste, abuse, or mismanagement, please contact the Office of
                             Inspector General.



                              Telephone:
                   The Inspector General’s HOTLINE
                           1-800-303-9737

          The deaf or hard of hearing, dial FRS (800) 877-8339
           and give the Hotline number to the relay operator.



                                   Web:
               http://oig.pbgc.gov/investigation/details.html



                                Or Write:
                 Pension Benefit Guaranty Corporation
                      Office of Inspector General
                            PO Box 34177
                    Washington, DC 20043-4177
